Department of Homeland Security
   Ofﬁce of Inspector General


            DHS Contracts Awarded Through Other 

            Than Full and Open Competition During 

                       Fiscal Year 2010 





OIG-11-41                                       February 2011
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                             FEB 4 11

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the DHS Office of the Chief
Procurement Office. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendation herein has been developed to the best knowledge available to our
office, and has been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................6 


   Acquisition Management Oversight ..............................................................................6 

   Acquisition Planning ...................................................................................................10 

   Contractor Eligibility ...................................................................................................11 

Recommendation ...............................................................................................................12 


Management Comments and OIG Analysis ......................................................................12 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................15 

     Appendix B:           Management Comments to the Draft Report .......................................17 

     Appendix C:           DHS Contract Files Reviewed .............................................................23 

     Appendix D:           Major Contributors to This Report ......................................................24 

     Appendix E:           Report Distribution ..............................................................................25 


Abbreviations
     CPO                   Chief Procurement Officer 

     DHS                   Department of Homeland Security 

     FAR                   Federal Acquisition Regulation
 

     FY                    Fiscal Year            

     HSAM                  Homeland Security Acquisition Manual 

     OCPO                  Office of the Chief Procurement Officer 

     OIG                   Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                   Senate Bill S.3607, Report No. 111-222, dated July 19, 2010,
                   included a requirement that the Department of Homeland Security,
                   Office of Inspector General review the department’s contracts
                   awarded through other than full and open competition during fiscal
                   year 2010 to determine compliance with applicable laws and
                   regulations. We reviewed selected component contract files, as
                   well as departmental policies, procedures, and management
                   controls, to determine whether acquisition personnel appropriately
                   documented and supported contracting decisions.

                   The department obligated about $1.3 billion for noncompetitive
                   contracts in fiscal year 2010. Our review of 40 contract files, with
                   a total reported value of more than $100 million, showed that the
                   department generally improved acquisition management oversight
                   by strengthening its guidance and conducting reviews of the
                   components to validate compliance with its guidance. However,
                   not all contract files contained sufficient evidence of justification
                   and approval, market research, and acquisition planning. Also,
                   acquisition personnel did not always document consideration of
                   contractor past performance when performing background research
                   of eligible vendors. As a result, the department cannot be sure that
                   it received the best possible value on the goods and services
                   acquired through these contracts or that acquisition personnel
                   awarded government contracts to eligible and qualified vendors.

                   We are making one recommendation to the department’s Chief
                   Procurement Officer to continue efforts to improve acquisition
                   management oversight.

                   The Chief Procurement Office agreed with our recommendation
                   and has already begun to take actions to implement the
                   recommendation. The agency’s response to our recommendation
                   is summarized and evaluated in the body of this report and
                   included in its entirety as Appendix B.




           DHS Contracts Awarded Through Other Than Full and Open Competition 

                                During Fiscal Year 2010
 


                                         Page 1
 

Background
        The Competition in Contracting Act of 1984 requires, with limited
        exceptions, that contracting officers promote and provide for full and open
        competition in soliciting offers and awarding U.S. government contracts.
        The Federal Acquisition Regulation (FAR) codifies uniform policies for
        acquiring supplies and services by executive agencies.

        The Office of the Federal Procurement Policy within the Office of
        Management and Budget plays a central role in shaping the policies and
        practices that federal agencies use to acquire goods and services. The
        office employs several tools to collect, develop, and disseminate
        government-wide procurement data for use by federal agencies and the
        general public, the most significant being the Federal Procurement Data
        System-Next Generation. The government uses these data to measure and
        assess various elements of procurement performance, including funds
        obligated and the extent of competition. The Office of Federal
        Procurement Policy requires executive agencies to certify annually that the
        data entered into this standard system are accurate and complete. We
        relied on data in this system as our source to identify noncompetitive
        contracts.

        Competition provides the best assurance that the government has received
        a fair and reasonable price and obtained the most comprehensive input on
        the technical aspects of the various methods to complete its work. It
        encourages contractors to offer best value proposals when bidding on
        federal contracts, thereby reducing costs and protecting the interest of
        taxpayers. According to the FAR, “best value” is the expected outcome of
        an acquisition that, in the government’s estimation, provides the greatest
        overall benefit in response to a requirement. Competition also discourages
        favoritism by leveling the playing field for contract competitors and
        curtailing opportunities for fraud and abuse.

        Contract specialists are required to perform certain steps during the other
        than full and open contracting process. As depicted in figure 1, the
        process begins when personnel identify a need. Contract personnel
        perform market research to determine the most suitable approach for
        acquiring, distributing, and managing supplies and services to support the
        department’s mission. Acquisition planning helps ensure that the
        government is meeting its needs in the most effective, economical, and
        timely manner. With this assurance, acquisition personnel announce a
        solicitation on FedBizOpps, the single, government-wide point of entry for
        federal procurement opportunities greater than $25,000, unless the agency
        authorizes an exception. After the government awards a contract under


        DHS Contracts Awarded Through Other Than Full and Open Competition 

                             During Fiscal Year 2010


                                      Page 2

other than full and open competition, the FAR requires the agency to make
the justification publicly available within 14 days, unless the Unusual and
Compelling Urgency exception is used, which allows for 30 days.
Agencies post justifications on FedBizOpps. The contract administration
phase begins after acquisition personnel post the justification and approval
to FedBizOpps.

Figure 1. The Contracting Process




The following entities within the Department of Homeland Security
(DHS) have a role in managing these procurements:

        •	 The Office of the Chief Procurement Officer – DHS
           Management Directive 0784, dated December 19, 2005, makes
           this office responsible for ensuring the integrity of all
           acquisitions that support DHS. The office provides policy,
           procedures, guidance, and training to the department’s
           acquisition workforce. The office also oversees the acquisition
           of contracted goods and services for DHS through several
           entities, such as the Acquisition Oversight and Strategic
           Support Branch, the competition advocates, and heads of
           contracting activity.

        •	 The Acquisition Oversight and Strategic Support Branch –
           Staff of this branch conduct oversight to verify the integrity of
           the acquisition practices of DHS and its components. This
           branch also provides acquisition training, offers consultation
           services for DHS contracting personnel, and serves as external
           audit liaison on acquisition-related topics. The Acquisition
           Oversight Team is responsible for reviewing procurements
           within specified thresholds to ensure compliance with
           applicable regulations and policies.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2010
 


                              Page 3
 

        •	 The DHS Competition Advocate is responsible for promoting
           full and open competition, promoting acquisition of
           commercial items, and removing barriers to full and open
           competition, such as unnecessarily restrictive statements of
           work, overly detailed specifications, and unnecessarily
           burdensome contract clauses. The DHS Competition Advocate
           must submit an annual report to the Chief Procurement Office
           on the components’ procurement activities.

        •	 The Procuring Competition Advocate is responsible for
           promoting full and open competition, promoting acquisition of
           commercial items, and removing barriers to full and open
           competition, such as unnecessarily restrictive statements of
           work, overly detailed specifications, and unnecessarily
           burdensome contract clauses at the component level. The
           Procuring Competition Advocate must submit an annual report
           to the DHS Competition Advocate on the components’
           procurement activities.

        •	 Heads of Contracting Activity directly manage the
           procurement functions of their respective components. They
           assist in the execution of acquisition programs by providing the
           necessary resources, facilities, and infrastructure for the
           procurement process. The heads of contracting activity also
           provide procurement data and lessons learned to the Chief
           Procurement Officer for wider distribution within DHS.

        •	 Contracting Officers are responsible for many of the activities
           leading up to an acquisition for goods or services.
           Responsibilities include ensuring that sufficient funds are
           available for obligation, requesting offers from as many
           potential sources as practicable, certifying that all required
           justification and approvals are accurate for awarding contracts
           noncompetitively, and determining that the anticipated cost
           will be fair and reasonable to the government. Contracting
           officers are also responsible for timely and accurate reporting
           of procurement data to the standard system.

        •	 Program Managers are empowered to make final scope of
           work, capital investments, and performance acceptability
           decisions, and are responsible for accomplishing program
           objectives or production requirements through the acquisition
           of in-house, contract, or reimbursable support resources, as
           appropriate. The program managers’ duties include developing


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2010


                              Page 4

            and updating the acquisition plan, coordinating with other
            personnel responsible for significant aspects of the plan,
            obtaining applicable concurrences, and forwarding the plan
            through the approval process.

        •	 Technical Representatives are responsible for providing and
           certifying necessary data to support their recommendation for
           other than full and open competition as being accurate and
           complete.

On July 19, 2010, the U.S. Senate introduced a bill to amend the
Department of Homeland Security Appropriations Act of 2007, which
provides appropriations for the fiscal year (FY) ending September 30,
2011. Section 522(c)(2)(d) of the bill directs the Office of Inspector
General (OIG) to review the department’s contracts awarded during FY
2010 through other than full and open competition to determine
departmental compliance with applicable laws and regulations. The bill
advises the OIG, when selecting contracts for review, to consider the
following:

        •	 The cost and complexity of the goods and services provided
           under other than full and open competition contracts
        •	 The criticality of the contracts to fulfilling the department’s
           missions
        •	 The problems with past performance on similar contracts or by
           the selected vendors
        •	 The complaints received about the award process or contractor
           performance

We reviewed DHS component contract files for contracts awarded during
FY 2010 through other than full and open competition to determine
whether component personnel included and approved all required
justifications and other elements in the contract files. We selected 40
noncompetitive contract awards with a total value of more than $100
million. We also reviewed DHS policies, procedures, and management
controls to determine whether acquisition personnel appropriately
documented and supported contracting decisions.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2010
 


                              Page 5
 

Results of Audit
        The department has made improvements with its acquisition management
        oversight. The department completed numerous oversight reviews and issued
        updated guidance to strengthen controls over acquisition management in response
        to recent Government Accountability Office and OIG audit report
        recommendations. Component personnel also created additional guidance for
        personnel to follow when performing acquisition management.

        Department and component actions improved the overall process; however, the
        department must do more to ensure accuracy and completeness of contract file
        documentation. Although deficiencies decreased in justification and approval of
        noncompetitive contracts and market research compared to previous years,
        contract files did not always have sufficient evidence of acquisition planning and
        consideration of vendor past performance history. These deficiencies occurred
        because contracting personnel did not include adequate documentation in the
        contract files to support the use of other than full and open competition.

        The department cannot be sure that it received the best possible value on the
        goods and services acquired through these contracts. The department also cannot
        be sure that acquisition personnel awarded government contracts to eligible and
        qualified vendors.

        Acquisition Management Oversight

                The department’s Office of the Chief Procurement Officer (OCPO) has
                made progress in improving oversight of contracting activities by
                conducting eight baseline reviews between June 2007 and June 2010.
                These oversight reviews assessed components’ compliance with
                applicable federal regulations, departmental acquisition manuals,
                guidance, regulations, and policies. The reports, which were provided to
                each component’s head of contracting activity, contained findings and
                recommendations for improving accuracy and completeness of data and
                support for justifications and approvals, market research, and
                responsibility determinations.

                The OCPO also issued a special review of contracts awarded
                noncompetitively 1 that contained recommendations for opportunities to
                improve the availability and accessibility of contract files, accurately code
                contract file information into the standard system, properly cite the

1
 DHS-OCPO, CPO Special Procurement Oversight Review of Noncompetitive Contracts (Report No. 10-
001-S, March 2, 2010).


                DHS Contracts Awarded Through Other Than Full and Open Competition 

                                     During Fiscal Year 2010
 


                                              Page 6
 

authority to award a contract noncompetitively, and ensure that adequate
rationale exists to support justification and approvals.

In response to prior OIG audit report recommendations, the department
made numerous changes to strengthen controls over acquisition
management. In October 2009, the department updated the Homeland
Security Acquisition Manual (HSAM) to provide additional guidance on
noncompetitive justification and approval documents. It also issued an
additional appendix to the HSAM, which specifically addressed market
research. The department also issued new guidance requiring
documentation of vendor eligibility before contract award and some
components implemented “best practices” to guide acquisition personnel
in improving data integrity, contract file completeness, market research
efforts, and vendor eligibility. The department also issued HSAM Notice
10-08, dated August 23, 2010, which requires personnel to include
advanced acquisition plan numbers in their contract files.

These department and component-level measures have contributed to the
department’s overall improvement in completing and documenting
justification, approvals, and market research.

        Noncompetitive Procurement Justification and Approval

        Although competition is the preferred method of acquisition within
        the federal government, FAR §§ 6.302-1 – 6.302-7 permit the
        following circumstances for other than full and open competition:

        •	 Only one responsible source and no other supplies or services
           to satisfy agency requirement
        •	 Unusual and compelling urgency
        •	 Industrial mobilization; engineering, developmental, or
           research capability; or expert services
        •	 International agreement
        •	 Authorized or required by statute
        •	 National security
        •	 Public interest




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2010
 


                              Page 7
 

                          The FAR requires that any agency contracting officer who
                          approves the acquisition of goods or services through other than
                          full and open competition
                                                         Figure 2. Exceptions to Written Justification
                          provide written                and Approval Requirement for
                          justification. The             Noncompeted Contracts
                          justification must have
                                                         1: Agency need for a brand name commercial
                          approvals from the             item for authorized resale.
                          appropriate authority.         2: Acquisition from qualified nonprofit
                          Depending on the dollar        agencies for the blind or other severely
                          amount of the acquisition,     disabled.
                          the justification approval     3: Sole source awards under the 8(a) Program. 2
                          requirements may vary.         4: When a statute expressly requires that, the
                          For contracts that require     procurement be made from a specified source.
                          written justification, the     5: Sole source acquisitions with an estimated
                          contracting officer must       value equal to or less than $100,000 or
                          sign to certify that the       acquisitions that qualify under the FAR test
                                                         program for certain commercial items.
                          information is complete and
                                                         6: U.S. Coast Guard is exempt from the
                          accurate. As shown in          requirement for written justifications and
                          figure 2, the FAR allows       approvals for contracts awarded citing
                          some exceptions to the         International Agreement.
                          requirement for written        Source: FAR Subpart 6.302-4(c); 6.302-
                          justification for              5(c)(2)-(3); 13.500(e); and 13.501(a)(2)(i)
                          noncompeted contract
                          awards.

                          The department, through its components, showed improvement in
                          the contracting files for supporting documentation of justification
                          and approval. We reviewed our audit reports from FY 2008 and
                          FY 2009 and compared the number of contract files that were
                          deficient in documentation that supported justification and
                          approvals to support noncompetitive contracting methods. We
                          identified deficiencies in about 27% of the files in FY 2008 and
                          about 13% in 2009. In FY 2010, about 11% of the contract files
                          showed deficiencies.

                          We reviewed 40 noncompetitive contract awards from FY 2010,
                          with an obligated value of about $100 million (see appendix C).
                          Contract data recorded in the standard system showed that 18 of
                          the 40 noncompetitive awards required written justification and
                          approval. However, 2 of the 18, with an awarded value of about

2
  The Small Business Administration’s 8(a) Program, named for a section of the Small Business Act, is a
business development program created to help small disadvantaged businesses compete in the American
economy and access the federal procurement market. Participants are given preferential treatment in
federal contracting.


                 DHS Contracts Awarded Through Other Than Full and Open Competition 

                                      During Fiscal Year 2010
 


                                                  Page 8
 

        $1.8 million, did not have an approved, written justification and
        approval. As a result, we were unable to determine whether
        contracting officials properly awarded these two contracts using
        noncompetitive procedures.

        Although the department has made significant improvement in
        providing oversight and direction on adequate justification and
        approval documentation, it needs to continue performing its
        management oversight and implement corrective actions where
        reviews and audits continue to identify deficiencies.

        Market Research

        The department also showed improvement in documenting market
        research over the 3-year period. In 2008, about 76% of the files
        we reviewed showed deficiencies in market research, and in 2009
        deficiencies increased to about 79%. By contrast, the number of
        deficiencies declined to about 7% of the files we reviewed in 2010.

        FAR § 10.001 requires agencies to conduct market research before
        (1) developing new requirements documents for an acquisition; (2)
        soliciting offers for an acquisition that exceeds $100,000, or is less
        than $100,000 when adequate information is not available and
        circumstances justify the cost; or (3) soliciting offers for
        acquisitions that could lead to a bundled contract. Agencies should
        conduct market research to ensure that the government is procuring
        goods and services at reasonable costs, regardless of the status of
        competition.

        Of the 40 noncompetitive contracts, 37 contract files (93%)
        contained evidence that acquisition personnel supported and
        sufficiently documented their market research. For example, one
        contract, which was an international agreement, contained an
        analysis of prices in the commercial market place to support
        market research efforts. However, three files (7%) did not include
        sufficient evidence that acquisition personnel performed market
        research. In October 2009, the department updated its HSAM to
        include requirements for acquisition personnel to document any
        market research performed.

        The HSAM also includes department-wide guidance to assist
        acquisition teams in determining the most suitable approach to
        acquiring, distributing, and managing supplies and services to
        support the department’s mission.


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2010


                              Page 9

             The publication of the market research guidance helped the
             department correct the market research deficiencies noted during
             previous years’ audit reports. By following federal regulations and
             departmental guidance, the department can be better assured that it
             received the best value for goods and services acquired.

             Best Practices

             Some components implemented additional guidance on
             noncompetitive contract awards. These actions address a number
             of weaknesses identified in previous audit reports. For example—

             •	 One component instituted a quality control checklist that
                provided two levels of review of documentation in support of
                noncompetitive award decisions.
             •	 One component created a market research questionnaire to
                guide acquisition personnel through their market research
                efforts.
             •	 One component included Dun & Bradstreet printouts in some
                contract files to support checks for the vendors’ fiscal and
                business integrity.

Acquisition Planning
     According to FAR § 2.101, acquisition planning is the process by which
     the efforts of all personnel responsible for an acquisition are coordinated
     and integrated into a comprehensive plan for fulfilling an agency’s needs
     in a timely manner and at a reasonable cost. Acquisition personnel did not
     adequately document and support acquisition planning for contracts
     awarded during FY 2010.

     The Department of Homeland Security Acquisition Manual, Appendix H,
     requires the department to prepare a written plan for acquisitions greater
     than or equal to $10 million. For acquisitions valued less than $10 million
     entering information into the Advance Acquisition Plan database satisfies
     the written acquisition plan requirement. The Advance Acquisition Plan
     database, www.fido.gov, is the department’s search tool for planned
     acquisitions for requirements over $100,000. Advance acquisition plans
     contain the integrated and coordinated efforts of all relevant acquisition
     personnel in determining acquisition requirements, financing, strategic
     planning, small business considerations, technical data requirements,
     contracting, and contract administration. In August 2010, DHS issued an



     DHS Contracts Awarded Through Other Than Full and Open Competition 

                          During Fiscal Year 2010


                                   Page 10

      HSAM Notice requiring components to maintain proof of the advance
      acquisition plan from www.fido.gov in the contract files.

      Of the 40 contracts in our sample, 34 or about 85% required an advance
      acquisition plan. However, 14 or about 41% of the 34 contracts, with a
      total value of about $29.9 million, did not have documentation in the
      contract file or component personnel could not provide evidence that they
      had entered the plans into www.fido.gov.

      Of the 40 contract files in our sample, 5 had individual values greater than
      $10 million and required a formal written acquisition plan. Four of the
      five had a written plan. For the remaining contract, component personnel
      were not able to provide us with evidence that they developed a written
      acquisition plan.

      The department needs to continue its emphasis on better planning and
      documenting its acquisitions and decision-making processes. Making sure
      each component’s acquisition decisions are well documented, integrated,
      and coordinated in determining requirements, financing, strategic
      planning, small business considerations, technical data requirements,
      contracting, and contract administration will assist the department in this
      effort, as well as in ensuring that the goods and services acquired are the
      best value.

Contractor Eligibility
      Although the department improved with acquisition management
      oversight, acquisition personnel did not always document in the contract
      files their support for vendor responsibility determinations and
      consideration of past performance prior to contract award.

      FAR § 9.105-2(b)(1) was updated on March 23, 2010, to address
      determinations and documentation of prospective contractor eligibility.
      The department issued HSAM Notice 2010-05 in April 2010 to update
      HSAM Chapter 3009.105-2, Determinations and Documentation, and
      requires contracting officers to document their consideration of the
      Excluded Parties List. The Excluded Parties List System contains
      information on contractors that have been suspended, disbarred, or
      otherwise deemed ineligible to contract with the federal government.

      DHS had documentation to support review of the list in 29 of the 40
      contracts that we reviewed for FY 2010. However, 11, or about 28%, of
      the contract files did not have evidence that component contracting offices



      DHS Contracts Awarded Through Other Than Full and Open Competition 

                           During Fiscal Year 2010


                                    Page 11

     considered the list prior to contract award. Fortunately, none of the
     contractors in our sample were currently on the list.

     Without considering the Excluded Parties List, contracting officers
     increase the risk of awarding contracts to vendors not eligible to enter into
     contracts with the government.

     Recommendation
            We recommend that the DHS Chief Procurement Officer, in
            coordination with component contracting activities:

            Recommendation 1: Complete the planned FY 2011 follow-up
            review of noncompetitive contracting to assess components’
            corrective actions and, as necessary, develop corrective action
            plans.


Management Comments and OIG Analysis
     The Chief Procurement Officer (CPO) provided comments on the draft of
     this report. A copy of the comments in its entirety is included in
     Appendix B. The CPO concurred with the recommendation in the report
     and noted that efforts are underway to address the recommendation made
     within the draft report.

     The CPO provided technical comments and suggested revisions to
     sections of our report. As appropriate, we made changes throughout the
     report in response to the CPO’s technical and suggested revisions.

     Management Comments to Recommendation 1

     CPO concurs. The CPO noted that the department is currently conducting
     the FY 2011 follow-up oversight review to its initial special review on
     noncompetitive contracting. This follow-up review will assess whether
     components have implemented recommendations from its initial special
     review and whether implementation of those recommendations improved
     compliance with applicable federal and departmental acquisition
     requirements. The CPO plans to conduct this follow-up review during the
     second quarter of FY 2011 and issue a final report by the third quarter FY
     2011. The CPO also indicates that it will implement an action plan if the
     report does not show significant improvements with deficiencies found
     during its initial special review.



    DHS Contracts Awarded Through Other Than Full and Open Competition 

                         During Fiscal Year 2010


                                  Page 12

                OIG Analysis: Once final, the CPO’s actions should sufficiently address
                components’ corrective actions. The recommendation is resolved, but will
                remain open until the department provides the results of the FY 2011
                follow-up review to the OIG along with any corrective action plans it
                developed.

                Management Technical Comments on Report Content

                The CPO also provided comments and suggested revisions to sections of
                our report. We made changes throughout the report in response to these
                technical comments and suggested revisions where applicable. However,
                we did not make changes to the following areas:

                Executive Summary: The CPO requested that we add a footnote to
                clarify that one of the contracts we included in our review of 40 FY 2010
                contracts was a FY 2003 contract that U.S. Customs and Border Protection
                (CBP) changed, by administrative modification, to a FY 2010 contract
                number. 3

                OIG Analysis: We used data extracted from the Federal Procurement
                Data System (FPDS) to select contracts awarded in FY 2010, and
                excluded modifications to existing contracts. On September 11, 2003,
                CBP awarded Chenega Technology Services Corporation a sole-source
                contract to maintain enforcement technology equipment. 4 On February 1,
                2010, CBP awarded a contract to Chenega (HSBP1010C00023) for $21.8
                million. CBP entered this action in FPDS as a FY 2010 noncompetitive
                contract, and not a modification to the original 10-year, nearly $475
                million contract (HSBP1004C00193) with Chenega. We out-briefed CBP
                officials at the conclusion of fieldwork and explained to CBP officials that
                because CBP represented the action as a contract awarded in FY 2010, we
                could not remove the contract from our sample.

                In 2009, the OIG issued an audit report and recommended that CBP assess
                whether continuing to exercise options on the 2003 contract would provide
                the best value to the government. 5 U.S. Customs and Border Protection
                concurred with this recommendation and responded that it had completed
                a best-value analysis and was developing an acquisition strategy to replace
                the contract. In its 90-day status update to the recommendation, dated

3
  CPO Comments on Draft Report Content, CPO Response to Draft Inspector General Report: DHS 

Contracts Awarded Through Other Than Full and Open Competition During Fiscal Year 2010, January 13, 

2011. 

4
  OIG-09-18, Customs and Border Protection Award Fees for Enforcement Equipment Maintenance and 

Field Operations Support Contract, February 2009.
 

5
  Id.
 



                DHS Contracts Awarded Through Other Than Full and Open Competition 

                                     During Fiscal Year 2010
 


                                              Page 13

August 2010, CBP informed the OIG that it had not finalized the approved
acquisition strategy required to close the recommendation. However, in
July 2010, CBP approved an increase in the 2003 contract ceiling through
the end of option year 6 (September 29, 2010) because the contract was
approaching its original 2003 ceiling of almost $475 million. This
increase in funding raised the contract value to $505 million. In
September 2010, CBP approved option year 7 of the 2003 contract to
provide services from September 2010 to September 2011. The total
value of the contract, upon exercising option year 7, was $593 million,
with a total value for award fees of over $32 million.

Results of Audit, Subsection: Noncompetitive Procurement
Justification and Approval: CPO believed that we incorrectly included
CBP contract HSBP1010C00023 as requiring justification and approval
documentation.

OIG Analysis: The CBP transposed the last two numbers of the contract
file in their response. We included CBP contract HSBP1010C00032 as
requiring justification and approval documentation, not
HSBP1010C00023. CBP assigned HSBP1010C00023 to the Chenega
contract.

Results of Audit, Contractor Eligibility: CPO did not agree that two
contract files did not contain evidence that acquisition personnel checked
contractor eligibility prior to contractor award.

OIG Analysis: On November 1, 2010, the U.S. Coast Guard provided
additional evidence to support market research, acquisition planning, and
award documentation deficiencies, and we amended the draft report.
However, the U.S. Coast Guard did not include additional contractor
eligibility evidence for these two files in their November 1, 2010,
submission.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2010
 


                              Page 14

Appendix A
Purpose, Scope, and Methodology

                    On July 19, 2010, the U.S. Senate introduced a bill to amend the
                    Department of Homeland Security Appropriations Act of 2007,
                    which provides appropriations for the fiscal year ending September
                    30, 2011. Section 522(c)(2)(d) of the bill directs the OIG to review
                    the department’s contracts awarded during FY 2010 through other
                    than full and open competition to determine departmental
                    compliance with applicable laws and regulations.

                    To meet the requirements of this legislative amendment, we
                    reviewed applicable federal laws and regulations, as well as DHS
                    and component-specific guidance, to identify requirements for
                    noncompetitive contract awards. We examined prior audit reports
                    to identify related work. We also reviewed DHS contracts in FY
                    2010 to determine whether DHS appropriately approved selected
                    components’ justifications for noncompetitive contract awards and
                    whether the justifications contained required elements.

                    We sampled contract files at four of eight DHS procurement
                    offices. We relied on data reported in Federal Procurement Data
                    System-Next Generation and selected files for review based on
                    location, cost, complexity, and criticality to the DHS mission. Our
                    sample covered procurement offices within the Federal Emergency
                    Management Agency, U.S. Coast Guard, U.S. Secret Service, and
                    U.S. Customs and Border Protection.

                    We reviewed a judgmental sample of 40 contracts awarded during
                    FY 2010 pursuant to the seven exceptions enumerated in FAR §
                    6.302. We selected 10 files for review from each of the four
                    components to determine whether contract files contained adequate
                    documentation to justify the contract awards. Specifically, we
                    determined whether the noncompetitive contract files contained
                    proper justifications and approvals, adequate market research, and
                    acquisition plans appropriate to the dollar values of the awards.
                    We also checked contract files for documentation to support
                    consideration of vendor past performance. Because there is no
                    assurance that a judgmental sample is representative of the entire
                    universe, we did not project our review results to all DHS
                    contracts.

                    We conducted our fieldwork in October 2010 at contracting offices
                    in Washington, DC. We conducted our review under the authority
                    of the Inspector General Act of 1978, as amended, and according



            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2010
 


                                          Page 15

Appendix A
Purpose, Scope, and Methodology

                    to generally accepted government auditing standards. Those
                    standards require that we plan and perform the audit to obtain
                    sufficient, appropriate evidence to provide a reasonable basis for
                    our findings and conclusions based on our audit objectives. We
                    believe the evidence obtained provides a reasonable basis for our
                    findings and conclusions based on our audit objectives.




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2010
 


                                          Page 16

Appendix B
Management Comments to the Draft Report




                                                                   U.S. Department of Homeland Security
                                                                   Washington, DC 20528

                                                                   , ""-
                                                                  ;r~~        HomeIand
                                  JAN. 13 2011                    W           Security

        MEMORANDUM FOR:              Anne L. Richards
                                     Assistant Inspector General for Audits
                                     OJfice/ofIn~pe r General
                                     IJM~.(/(         aLw---
        FROM:                        Richard K. nderson
                                     Deputy, Chief Procurement Officer
                                     Department of Homeland Security

        SUBJECT:                     CPO Response to Draft Inspector General Report: DHS
                                     Contracts Awarded Through Other Than Full and Open
                                     Competition During Fiscal Year 2010


        In response to your memorandum dated December 14, 2010, entitled "Draft Report: DHS
        Contracts Awarded Through Other Than Full and Open Competition During Fiscal Year 2010-
        For Official Use Only, OIG Project Number: 1O-139-AUD-MGT," attached are the comments
        from the Office ofthe Chief Procurement Officer (CPO) for inclusion within the management
        comments appendix of the forthcoming final report.

        [fthere are any questions, please contact Mr. David J. Capitano, Director, Oversight and
        Strategic Support, at (202) 447-5417 or at david.capitano@dhs.gov.


        Attachments:
         CPO Response to Draft Report


        Cc:
         DHS Undersecretary for Management
         DHS Office of the Chief Financial Officer




               DHS Contracts Awarded Through Other Than Full and Open Competition 

                                    During Fiscal Year 2010
 


                                                     Page 17
 

Appendix B
Management Comments to the Draft Report




                  CPO Response to OIG Draft Report: "DHS Contracts A warded Tltrouglt
                    Otlter Titan Full and Open Competition During Fiscal Year 2010"

                                                                                     Attachment
        I. CPO Response to OIG Draft Report Recommendations

        The draft fG report includes one recommendation to the Chief Procurement Officer (CPO); a
        specific response to this recommendation is provided below.

        Recommendation 1: "We recommend that the DHS ChiefProcurement Officer, in coordination
        witlt component contracting activities: Complete tlte pianned FY 2011 follow-up review of
        noncompetitive contracting to assess components' corrective actions and, as necessary, develop
        corrective action plans."

        CPO Response: CPO concurs with this recommendation. OCPO is currently conducting the
        follow-up oversight review on noncompetitive contracting to detennine if (a) the
        recommendations in our initial report were implemented, and (b) whether the implementation of
        those recommendations has improved compliance by DHS procurement activities with the
        applicable FAR, HSAR, and HSAM requirements. It is anticipated that the follow-up review
        will be conducted during the second quarter of fiscal year 2011, with a final report issued during
        the third quarter of fiscal year 20 II. Should this follow-up review disclose that significant
        improvements have not been made in the areas where deficiencies were identified in the initial
        special review, CPO will implement an action plan to initiate additional measures (e.g., increased
        accountability, lower thresholds for CPO andlor HCA approval for pre-award reviews) to
        address this issue,

        /I. CPO General Comments: Contract Competition within DHS

        In addition to the positive findings already noted in the draft report regarding improvements
        made in acquisition management oversight, CPO recommends that the report also recognize the
        significant accomplislunents that DHS continues to make in the area of contract competition,
        For example, the percentage of DHS obligations awarded through competitive contract actions
        increased from 76 percent in fiscal year 2009 to 86 percent in fiscal year 20 I0, by rar the highest
        percentage ever achieved by the Department. In addition, all eight DHS Contracting Activities
        exceeded their fiscal year 2010 competition goals. Furthermore, seven of the eight DHS
        Contracting Activities also achieved a competition rate (in terms of competitive obligations) of
        79 percent or greater during fiscal year 2010.

        III. CPO Comments on Report Content

        The following comments are provided in accordance with the draft report sections as specified
        below.




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2010
 


                                                   Page 18
 

Appendix B
Management Comments to the Draft Report




                  CPO Response to OIG Draft Report: "DRS COlllracls Awarded Through
                    Olher Thall Full alld Opell Compelilioll Durillg Fiscal Year 2010"

        Section entitled "Executive Summary," Page t.

        I. Within the second paragraph of this section, and likewise later within the draft report within
           pages 5, 8, 9, II, and 13, OIG makes reference to the review of 40 contract files, ostensibly
           awarded during fiscal year 2010; however, CPO notes that U.S. Customs and Border
           Protection (CBP) contract HSBPI010C00023, included within the review, was actually
           awarded during fiscal year 2003. CPO believes that this contract file was seiected by OIG
           because the contract number was changed from its former fiscal year 2003-based contract
           number to a fiscal year 2010 procurement identification number, via an administrative
           contract modification, to accommodate a change in CBP's electronic procurement system.
           Therefore, CPO requests that OIG include a footnote to this paragraph that clarifies the fact
           that this contract was awarded during fiscal year 2003, as a competed contract under the
           Small Business Administration's 8(a) Program.

        2. Within the second paragraph of this section, CPO notes that the second sentence states: "Our
           review oj 40 cOlltractjiles, with a reported value ojmore than $100 million, showed that the
           departmem generally improved acquisition management oversight by strengthening its
           guidance and conducting reviews ojthe compollems 10 validate compliallce with its
           guidallce." As currently written, this sentence could be interpreted as meaning each of the
           procurements reviewed were in excess of $1 00 million, rather than the fact that the total
           value of the all the procurements reviewed was more than $i 00 million. Therefore, CPO
           recommends that this sentence be revised to read as follows:

                "Our review of 40 contract files, with a total reported value of more than
               $100 million, showed that the department generally improved acquisition
               management oversight by strengthening its guidance and conducting
               reviews of the components to validate compliance with its guidance."

        3. Within the second paragraph of this section, CPO notes that the fifth sentence states: "As a
           resull, Ihe deparlment cannol be sure Ihal il received Ihe besl possible value on Ihe goods
           and services acquired through Ihese contracts or that acquisition personnel awarded
           government conlracls 10 eligible and qualified vendors." As currently written, this sentence,
           when presented in the context of the executive summary section of the draft report, may lead
           readers of the "Executive Summary" of the report to believe that over $100 million dollars
           was spent by DHS in a manner that resulted in unsatisfactory performance, or, that awards of
           contracts were made to ineligible vendors (which the report later states, on page Ii, did not
           happen). Therefore, CPO requests that this sentence be revised to present a fair summary of
           the IG's findings, when considering the complete assessment of the facts presented by its
           audit fieldwork; for example, the inclusion of a statement that clarifies the fact that the
           majority of the contract files reviewed by OIG were in compliance with the FAR.




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2010
 


                                                     Page 19
 

Appendix B
Management Comments to the Draft Report




                  CPO Response to OIG Draft Report: "DHS Conlracls Awarded Through
                    Olher Than Full and Open Compelilion During Fiscal Year 2010"

        Section entitled "Baekground," pages 2 through 5.

        4. CPO notes that page 3, Figure I, entitled "The Contracting Process," depicts a chart labeled
           "Olher than Full and Open Compelilion Process," that shows a standard process for all
           contracts awarded under other than full and open competition. However, this standard
           process does not apply in all situations. For example, the exception to other than full and
           open competition, under Unusual and Compelling Urgency pursuant to FAR 6.302-2, does
           not require announcing a solicitation on FedBizOpps. The same is true for procurements
           authorized or required by statute under FAR 6.302-5, and certain actions related to national
           security at FAR 6.302-6. Also, FAR 5.202 identifies other reasons for exceptions to the
           synopsis requirement. Therefore, CPO recommends that the flowchart be changed as
           follows:

                   4th block should read: Announce the Solicitation on FedBizOpps, unless an
                   exception is authorized (for "brand name" buys, the J&A must also be
                   published, per FAR 5.102(a)(6));

                   5" block should read: Evaluation and Award; and,

                   6" block should be revised or footnoted to reflect both of the required posting
                   timeframes (i.e., 14 days and 30 days).

        Section entitled "Results of Audit," pages 6 through 12.

        5. On page 6, within the third paragraph, the second sentence states: "The deparlment also
           cannol be sure that personnel awarded government conlracts to eligible and qualified
           vendors." CPO notes that the audit fieldwork, per page 11 of the draft report, actually found
           that all 40 OIG reviewed contracts were awarded to eligible and qualified vendors; therefore,
           this sentence may lead readers to believe that contracts were awarded to vendors on the
           excluded parties list. As such, CPO requests that this sentence be changed as follows:

                   "The department's acquisition personnel did not always adequately document
                   contract files to show that the excluded parties list was reviewed to ensure that
                   ineligible vendors did not receive contract awards."

        "Results of Audit," Subsection: Noncompetitive Procurement Justification and Approval,
        pages 7 through 9.

        6. On page 8, within Figure 2, entitled "Exceptions to Written Justification and Approval
           Requirement for Noncompeted Conlracts," Item 5 states: "Sale source acquisitions with an
           estimated value equal 10 or less than $100,000 or acquisitions that qualify under the FAR test
           program for certain commercial items." CPO notes that, beginning with" .. .or acquisitions
           that qualify under the FAR tesl program for certain commercial items," OIG should include




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2010
 


                                                      Page 20
 

Appendix B
Management Comments to the Draft Report




                    CPO Response to OIG Draft Report: "DHS Contracts Awarded Through
                      Other Titan Full and Open Competition During Fiscal Year 2010"

           clarification explaining that FAR Part 13 is exempt from FAR Part 6; however, FAR
           13.501 (a)( I)(i) does require a written justification and approval. Therefore, CPO
           recommends that Item 5 within Figure 2 be revised or footnoted in order to provide this
           clarification.

        7. On page 8, within the third paragraph, the second and third sentences make reference to
           18 DHS contracts that required written justification and approval documents to support their
           noncompetitive awards; and, that 2 of those 18 contract files lacked the required justification
           and approval document. CPO notes that one of the two contracts cited within sentence three
           as requiring a justification and approval document, U.S. Customs and Border Protection
           (CBP) contract HSBPIOIOC00023, was actually awarded as a competed contract under the
           Small Business Administration's 8(a) Program. Therefore, CPO requests that, where
           necessary, this subsection be modified to correct the cited number of deficiencies with
           respect to contract files that did not include required justification and approval
           documentation for noncompetitive awards.

        i~Results   of Audit," Subsection: i~ Acquisition Planning," pages 10 through II.

        8. CPO notes that on page 10, within the second paragraph, the first sentence refers to
           Appendix I of the Department of Homeland Security Acquisition Manual (HSAM). The
           reference to Appendix I is apparently a typographical error; Appendix H is the correct
           appendix within the HSAM with respect to acquisition planning guidance.

        "Results of Audit," Subsection: "Contractor Eligibility," pages" through 12.

        9. On page II, within the bottom or third paragraph of the subsection entitled "Contraclor
           EligibiliIY," the first two sentences state that 29 contract files included evidence that the
           contracting offices checked the excluded parties list and that II contract files did not include
           such evidence. CPO notes that 2 of the II referenced files, located at the Coast Guard, cited
           by OIG not to include evidence that the contracting office reviewed the excluded parties list,
           actually did contain such evidence. Specifically, Coast Guard contract files
           HSCG2310CPCI242 and HSCG2310CPTYA14, both contained evidence that the excluded
           parties list was checked prior to contract award (CPO verified that the source documents
           from these files have been provided to the OIG audit team). Therefore, CPO requests that the
           first two sentences of this paragraph be revised as follows:

                     "DHS had documentation to support review of the list in 31 of the 40 contracts we
                     reviewed for FY 2010. However, 9, or about 22%, of the contract files did not have
                     evidence that component contracting offices considered the list prior to award."

        10. On page 12, the last sentence of the subsection entitled "Conlraclor Eligibility" states:
            "Wilhoul considering Ihe Excluded Parlies Lisl, conlracling officers increase Ihe risk of
            awarding contracls 10 vendors nol eligible 10 enler into collIracls wilh Ihe govemmelll."




               DHS Contracts Awarded Through Other Than Full and Open Competition 

                                    During Fiscal Year 2010
 


                                                      Page 21
 

Appendix B
Management Comments to the Draft Report




                CPO Response to OIG Draft Report: "DHS Contracts Awarded Tlrrouglr
                  Otlrer Tlran Full and Open Competition During Fiscal Year 2010"

          CPO notes that the placement of this sentence at the end of this subsection, and without any
          explanation of how it fits within the context of the IG's preceding explanation of its findings,
          may confuse readers of the report; and, deflects from the actual discovered issue: that not all
          contract files reviewed by the audit team included evidence that the excluded parties list was
          checked prior to contract award. As such, CPO requests that this sentence be revised as
          follows, in order to more accurately portray the fieldwork findings of the OIG audit team:

                 "The Department's contracting offices must improve their contract file
                 documentation practices in order to ensure that every eontract award file clearly
                 provides evidence that the Excluded Parties List System was checked prior to the
                 award of the contracts."




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2010
 


                                                    Page 22
 

Appendix C
DHS Contract Files Reviewed


                              DHS Contracts Reviewed 6 FY 2010
                              1             HSBP1010C00056
                              2             HSBP1010C00023
                              3             HSBP1010C00026
                              4             HSBP1010C00111
                              5             HSBP1010C00071
                              6             HSBP1010C00015
                              7             HSBP1010C00030
                              8             HSBP1010C00074
                              9             HSBP1010C00032
                              10            HSBP1010C00060
                              11             HSFEHQ10C0260
                              12             HSFEHQ10C0433
                              13             HSFEHQ10C0410
                              14             HSFEHQ10C0895
                              15             HSFEHQ10C0456
                              16             HSFEHQ10D0394
                              17             HSFEHQ10D0666
                              18             HSFEHQ10C0102
                              19             HSFEHQ10C0113
                              20             HSFEHQ10C1102
                              21             HSSS0110C0002
                              22             HSSS0110C0015
                              23             HSSS0110C0009
                              24             HSSS0110C0063
                              25             HSSS0110C0011
                              26             HSSS0110C0001
                              27             HSSS0110D0002
                              28             HSSS0110C0024
                              29             HSSS0110C0067
                              30             HSSS0110C0036
                              31           HSCG2310CPLP002
                              32           HSCG2310CPCI404
                              33           HSCG2310CMCX004
                              34           HSCG2310CPE6002
                              35           HSCG2310CMAV586
                              36            HSCG2310CPTI000
                              37           HSCG2310CPCI242
                              38           HSCG2310CPTYA14
                              39           HSCG2310DMMN817
                              40           HSCG2310DPPC333




6
 Contract numbers downloaded from Federal Procurement Data System-Next Generation. We gave each
component a list of contracts reviewed with deficiencies noted during our review.



                DHS Contracts Awarded Through Other Than Full and Open Competition 

                                     During Fiscal Year 2010
 


                                              Page 23
 

Appendix D
Major Contributors to This Report


                     Linda R. Howard, Director
                     Beverly H. Bush, Audit Manager
                     Dawn E. Pizarro, Auditor
                     Victoria Phan, Program Analyst
                     Duane Albert, Referencer




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2010
 


                                           Page 24
 

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Chief Procurement Officer
                      DHS Competition Advocate
                      DHS Component Liaison, Federal Emergency Management
                      Agency
                      DHS Component Liaison, U.S. Coast Guard
                      DHS Component Liaison, U.S. Secret Service
                      DHS Component Liaison, Customs and Border Protection

                      Office of Management and Budget
                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2010
 


                                           Page 25
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
